TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Physical Security Risk Assessment
                          Program Needs Improvement



                                      September 16, 2013

                              Reference Number: 2013-10-101




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


THE PHYSICAL SECURITY RISK                            These 49 facilities included childcare centers,
ASSESSMENT PROGRAM NEEDS                              parking lots and garages, and storage units that,
IMPROVEMENT                                           although not occupied by IRS employees, are
                                                      within or adjacent to facilities housing IRS
                                                      employees.
Highlights                                            Completed risk assessments prepared by the
                                                      IRS identified numerous additional security
Final Report issued on                                countermeasure needs at IRS facilities.
September 16, 2013                                    However, TIGTA found that some
                                                      countermeasures were not acted upon. The IRS
Highlights of Reference Number: 2013-10-101           cited resource constraints as a reason that
to the Internal Revenue Service Chief,                countermeasures were not implemented. For
Agency-Wide Shared Services.                          example, the IRS did not implement blast
                                                      mitigation countermeasures at approximately
IMPACT ON TAXPAYERS                                   191 facilities and has not added additional
The IRS’s Physical Security and Emergency             guards or other countermeasures at certain
Preparedness office is responsible for                Taxpayer Assistance Centers. During site visits
conducting risk assessments to ensure that IRS        to IRS facilities, TIGTA also found that risk
facilities are secure and employees and               assessments did not identify additional
taxpayers are safe. TIGTA’s review identified         vulnerabilities. For example, a childcare center
deficiencies in the Physical Security Risk            allows direct access to one IRS facility without
Assessment Program and found that all facilities      the required screening. At another facility, a
did not receive risk assessments as required.         local IRS manager chose not to implement
As a result, the IRS may have security                countermeasure improvements paid for and
vulnerabilities that are not identified and           provided to the facility.
addressed in a timely manner, thereby placing         WHAT TIGTA RECOMMENDED
IRS employees and taxpayers at risk.
                                                      TIGTA made seven recommendations to the
WHY TIGTA DID THE AUDIT                               Director, Physical Security and Emergency
This audit was initiated because of the               Preparedness, to address identified
numerous threats made against IRS facilities          weaknesses. For example, TIGTA
and employees. To proactively mitigate these          recommended that the IRS include the
threats, the IRS is required to conduct               development of a process to ensure that
comprehensive and timely risk assessments to          inventory records contain all relevant information
identify and address vulnerabilities in physical      including the dates when risk assessments
security. The overall objective of this review        should be performed. TIGTA also
was to determine whether physical security risk       recommended that the IRS implement
assessments were conducted as required at all         appropriate security protocols at the facility with
IRS facilities.                                       the childcare center to screen all visitors
                                                      entering the grounds and the building according
WHAT TIGTA FOUND                                      to requirements.
The IRS completed 630 risk assessments at IRS         In their response, IRS management agreed with
facilities and met its requirement to provide a       the recommendations and plans to implement
report summarizing the findings to the IRS            corrective actions to address them. For
Commissioner in January 2011. However, the            example, the IRS plans to ensure that inventory
IRS did not complete risk assessments at              records include all relevant information and
14 facilities. Additionally, the IRS could not        develop a process to ensure that required
provide evidence that risk assessments were           countermeasures are in place and functioning at
performed for 49 facilities that are the              all Taxpayer Assistance Centers.
responsibility of the Federal Protective Service.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 16, 2013


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Physical Security Risk Assessment Program
                             Needs Improvement (Audit # 201210007)

 This report presents the results of our review to determine whether physical security risk
 assessments were conducted as required at all Internal Revenue Service (IRS) facilities. Our
 review focused on the risk assessments conducted by the Physical Security and Emergency
 Preparedness office in Calendar Year 2010 to address the IRS Commissioner’s requirement to
 conduct risk assessments at all IRS-occupied facilities to identify measures needed to improve
 employee safety. This review is included in our Fiscal Year 2013 Annual Audit Plan and
 addresses the major management challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                                          The Physical Security Risk Assessment
                                               Program Needs Improvement




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Physical Security and Emergency Preparedness Office
          Completed 630 Risk Assessments, but Did Not Perform Risk
          Assessments on Additional Internal Revenue Service Facilities .................. Page 4
                    Recommendations 1 through 3:......................................... Page 6

          Risk Assessment Findings Were Not Consistently Acted Upon, and
          Additional Vulnerabilities Were Identified During Site Visits..................... Page 7
                    Recommendation 4:........................................................ Page 10

                    Recommendations 5 through 7:......................................... Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measure ................................................................ Page 16
          Appendix V – Facility Security Level Determination Matrix ...................... Page 17
          Appendix VI – Fourteen Internal Revenue Service Buildings That Did
          Not Receive a Risk Assessment in Calendar Year 2010 .............................. Page 18
          Appendix VII – Status of 14 Internal Revenue Service Buildings
          That Did Not Receive Timely Risk Assessments ......................................... Page 19
          Appendix VIII – Fourteen Physical Security and Emergency
          Preparedness Office Territories .................................................................... Page 20
          Appendix IX – Management’s Response to the Draft Report ...................... Page 22
         The Physical Security Risk Assessment
              Program Needs Improvement




              Abbreviations

CY     Calendar Year
FPS    Federal Protective Service
FSL    Facility Security Level
GDI    Graphic Database Interface
IRS    Internal Revenue Service
ISC    Interagency Security Committee
PSEP   Physical Security and Emergency Preparedness
TAC    Taxpayer Assistance Center
                                     The Physical Security Risk Assessment
                                          Program Needs Improvement




                                             Background

Due to the nature of the Internal Revenue Service’s (IRS) mission, the organization remains a
target for those who are angry at the tax system or the Government. Threats of violence directed
at the IRS’s 100,000 employees at more than 600 facilities throughout the country have
increased during a time of continued financial hardship.1 In the one-year period between
October 2010 and September 2011, there were more than 1,400 reported threat incidents directed
towards IRS employees and infrastructure.
In an effort to address the continued threat to IRS employees and facilities, in March 2010, the
IRS Commissioner initiated a Security Readiness Project which established a task force with a
mission to determine how to improve the IRS’s security posture and assure employees that they
are safe in the workplace. One important component of the project included conducting in-depth
security reviews (risk assessments) of all IRS facilities by December 31, 2010.
The Agency-Wide Shared Services’s Physical Security and Emergency Preparedness (PSEP)
office is responsible for program management and operations support to ensure that all IRS
physical security and emergency preparedness programs are operating in an integrated manner to
protect IRS employees, facilities, critical business operations, and assets.
The PSEP office’s primary responsibilities are to:
       Ensure the protection of employees, visitors, and property at IRS facilities.
       Ensure the security of IRS physical infrastructure and classified information.
       Ensure that readiness and preparedness activities enhance the IRS’s ability to continue
        ongoing services to taxpayers.
       Coordinate and execute emergency preparedness and crisis response activities
        IRS-wide and in conjunction with other Federal, State, local, and relief agencies.
       Develop and maintain an effective working relationship with the Department of
        Homeland Security, the Department of Defense, and other Federal agencies involved in
        national security and emergency response issues.
To fulfill one of its primary responsibilities, the PSEP office has implemented a risk
assessment program based on the Department of Homeland Security’s Interagency



1
 The 600-plus facilities include IRS employee-occupied facilities and other non-IRS occupied facilities such as
privately run childcare centers or credit unions sites, which typically house non-IRS personnel.
                                                                                                            Page 1
                                      The Physical Security Risk Assessment
                                           Program Needs Improvement



Security Committee (ISC) standards.2 Risk assessments evaluate both internal and
external security risks and are conducted on a pre-established schedule depending on the
assigned Facility Security Level (FSL) of the facility.3
According to the guidance in the ISC standards, the first step in the risk assessment process
entails determining the FSL of the facility. The PSEP office used the criteria in the ISC
standards for establishing the FSL, which involves analyzing various factors that make the
facility a target for adversarial acts as well as those that characterize the value or criticality of the
facility. These factors are input into a matrix of criteria and given a point value, and the total
point value determines the FSL of the facility.
The FSL of a facility ranges from one to five, with five being the highest level for security risk
and one being the lowest level. For example, a facility designated as FSL V would require the
most security. Some of the factors considered in determining the FSL assessment include the
number of employees occupying the facility and the square footages. Other factors which could
raise the FSL could include intangible items such as symbolic significance or historical
importance of a facility.
As such, the PSEP office was tasked with identifying the total number of IRS-occupied buildings
and conducting in-depth risk assessments at those facilities.4 A prior Treasury Inspector General
for Tax Administration review5 evaluated the contract between the IRS and the contractor to
ensure that the IRS received the deliverables from the contractor in accordance with the terms of
the contract.6 Based on the concerns raised during that review of the contract, we initiated this
review to assess the adequacy of the physical security assessments conducted at IRS facilities.
For this review, we judgmentally7 selected for review 10 IRS facilities from the 630 risk
assessments conducted by the PSEP office. Our review included facilities with FSL II through
FSL V levels and represented four of the 14 PSEP office Territories nationwide.8 Our analysis
included site visitations to interview PSEP office staff (including the security specialist and the
respective Territory manager) and walkthroughs of each of the 10 facilities. The physical
observations during the walkthroughs and interviews with on-site PSEP office staff to discuss the


2
  The ISC established standards for security in and protection of Federal facilities. The ISC issued interim
standards, Physical Security Criteria for Federal Facilities – An Interagency Security Committee Standard (April
12, 2010), that established a baseline set of physical security measures to be applied to all Federal facilities based on
their designated Facility Security Level.
3
  See Appendix V for the FSL Determination Matrix used by the PSEP office.
4
  PSEP office management determined they would perform risk assessments only at IRS facilities with employees.
The PSEP office excluded some facilities such as parking lots, storage facilities, childcare centers, and credit unions.
5
  Treasury Inspector General for Tax Administration, Ref. No. 2012-10-075, An Independent Risk Assessment of
Facility Physical Security Was Not Performed in Compliance With Contract Requirements (Jul. 2012).
6
  Physical Security Emergency Preparedness Risk Assessment contract (TIRNO-10-C-00041).
7
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
8
  See Appendix VIII for a list of the 14 PSEP office Territories.
                                                                                                                 Page 2
                                    The Physical Security Risk Assessment
                                         Program Needs Improvement



risk assessments they conducted in Calendar Year (CY)9 2010 provided us with a better
understanding of the risk assessment process and helped to determine the status of the CY 2010
findings and recommendations. Our physical observations were not intended to replicate risk
assessments performed during CY 2010.
This review was performed at the IRS National Headquarters in the Agency-Wide Shared
Services function in Washington, D.C., during the period June 2012 through July 2013. Site
visits were also made to two offices in Denver, Colorado; one office in Golden, Colorado; three
offices in Atlanta, Georgia; two offices in Memphis, Tennessee; one office in
Falls Church, Virginia; and the IRS National Headquarters in Washington, D.C. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




9
    The 12-consecutive-month period ending on December 31.
                                                                                           Page 3
                                     The Physical Security Risk Assessment
                                          Program Needs Improvement




                                       Results of Review

The Physical Security and Emergency Preparedness Office
Completed 630 Risk Assessments, but Did Not Perform Risk
Assessments on Additional Internal Revenue Service Facilities
By December 31, 2010, the PSEP office completed 630 risk assessments and met its requirement
to provide a report summarizing the findings to the IRS Commissioner in January 2011.
Although our review did not evaluate the accuracy or completeness of all 630 risk assessments,
we did find that the PSEP office completed all 630 risk assessments in the necessary six-month
period. However, risk assessments were not completed at 14 facilities occupied by IRS
employees in CY 2010.10 In addition, the PSEP office did not complete risk assessments at
49 other facilities that were not specifically occupied by IRS employees but were located in or
adjacent to the facilities.

Risk assessments were not performed at 14 facilities during CY 2010
The PSEP office did not conduct risk assessments on 14 facilities occupied by IRS employees.
While PSEP office management did not explain why risk assessments were not performed at the
14 facilities we identified, the PSEP office’s method of tracking its inventory of facilities may
have contributed to the omission. The PSEP office compiles its inventory list by maintaining an
Excel spreadsheet based on real estate data contained in the IRS’s Graphic Database Interface
(GDI).11 Because the Excel spreadsheet is a standalone document and not linked to the GDI, any
changes in a facility’s status must be noted by the PSEP office employee and transferred to the
spreadsheet manually. Therefore, if the PSEP office employee does not reconcile the changes
between the GDI and the Excel spreadsheet, there may be errors and omissions in the inventory
list maintained by the PSEP office.
After we informed it of the omission, the PSEP office performed risk assessments on five of the
14 facilities that did not receive a risk assessment in CY 2010. Two of these five facilities were
designated as FSL IV, and the remaining three facilities were designated as FSL II. For the

10
   See Appendix VI for a list of the 14 facilities, which consisted of four buildings associated with one campus and
10 IRS office buildings. A campus is the data processing arm of the IRS. The campuses process paper and
electronic submissions, correct errors, and forward data to the Computing Centers for analysis and posting to
taxpayer accounts. Of these 14 facilities, nine have closed and five remain open. See Appendix VII for more
information.
11
   The GDI is an automatic system that tracks the IRS real property portfolio including buildings, space, and
services. The GDI report is provided to the PSEP office by the Real Estate Facility Management group. PSEP
office management used the June 6, 2010, GDI report to estimate the number of buildings in inventory.
                                                                                                              Page 4
                                    The Physical Security Risk Assessment
                                         Program Needs Improvement



remaining nine facilities, PSEP office management stated that although these facilities were open
during CY 2010 and should have had risk assessments performed, they are now closed.12
Maintaining an accurate inventory of IRS-occupied facilities is imperative for the PSEP office to
accomplish its mission. If risk assessments are not done timely or if facilities are missed,
security vulnerabilities may not get addressed and IRS employees and Government assets could
be subject to increased risk.13 Approximately 4,408 IRS employees were located at the
14 facilities we identified.14

Risk assessments were not performed at 49 facilities, including credit unions,
childcare centers, storage facilities, and parking lots
In addition to the 14 facilities previously discussed, we identified 49 facilities that did not receive
a risk assessment in CY 2010. These 49 facilities, which included childcare centers, parking lots
and garages, storage units, and a credit union, are not specifically occupied by IRS employees.
These facilities are used by IRS employees and are typically located either within or next to
facilities housing IRS employees. PSEP office management stated that the 49 facilities were
excluded because the Federal Protective Service (FPS)15 is responsible for the security at these
facilities. However, the PSEP office did not provide evidence that the 49 facilities received a
risk assessment from either the IRS or the FPS.
The PSEP office’s Internal Revenue Manual16 does not address which types of facilities should
receive a risk assessment. However, during our audit, PSEP office management issued a
Standard Operating Procedure dated August 7, 2012, which provides general information about
the types of facilities the PSEP office should review. The document states, “risk assessments are
performed at all IRS facilities, occupied by Federal employees and contractors and Day Care
centers.” Although the PSEP office recently issued procedures, there is limited information
about which types of facilities require a PSEP risk assessment. For example, we received
conflicting information about childcare centers and storage facilities during interviews with
PSEP office management. One PSEP manager stated that if a childcare center is located in a
single-tenant building, the IRS (the PSEP office) would perform the risk assessment; however, if
the childcare center is located in a multitenant building, the FPS would perform the risk
assessment. In another instance, a Territory manager stated that the PSEP office would perform
a risk assessment on an unoccupied storage facility if it contained grand jury records.



12
   See Appendix VII for more information.
13
   The ISC requires that buildings designated as FSLs III, IV, and V be evaluated on a three-year cycle, and
buildings designated as FSLs I and II be completed every five years. The FSL is developed based upon mission
criticality, symbolism, population, facility size, and threat to tenant agencies.
14
   See Appendices VI and VII for more information about these facilities.
15
   The FPS is an organization within the Department of Homeland Security.
16
   IRM 10.2.11 (Sep. 28, 2009).
                                                                                                         Page 5
                                 The Physical Security Risk Assessment
                                      Program Needs Improvement



PSEP office management stated that they do not have a documented policy or agreement with
the FPS regarding the risk assessment process. They also indicated that the FPS has
responsibility for the 49 facilities because they are leased by the General Services
Administration. However, PSEP office management also advised us that the General Services
Administration leases all IRS buildings because the IRS owns none of its facilities. PSEP office
management stated they have an excellent relationship with the FPS, but communications
between the two organizations is a challenge.
PSEP office management could not confirm whether the FPS conducted risk assessments at the
49 facilities we identified. As a result, the safety of IRS employees and facilities could be
affected because many of these 49 facilities are located adjacent to or in close proximity to IRS
facilities. In addition, the Standard Operating Procedure does not provide a clear explanation of
the types of facilities that require a risk assessment, so there is a risk that some facilities may be
omitted from future risk assessments.

Recommendations
The Director, PSEP, should:
Recommendation 1: Develop a process to ensure that inventory records include all relevant
information, such as the date facilities are open and closed as well as the dates risk assessments
should be performed.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       PSEP, Agency-Wide Shared Services, implemented a process to ensure that PSEP
       inventory records include all relevant information, such as the date facilities are opened
       and closed as well as the dates risk assessments should be performed. The PSEP staff
       uses monthly reports from the GDI Building Directory and the Joint Information
       Management Site Consolidated Report to maintain an accurate building inventory and to
       calculate the due dates for risk assessments.
Recommendation 2: Work with the FPS to ensure that the IRS receives copies of FPS risk
assessments performed at IRS facilities and a schedule of when the FPS plans to perform future
risk assessments of IRS facilities.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       PSEP, will request from the FPS National Director, copies of all FPS risk assessments of
       space in IRS inventory and a schedule of when the FPS plans to perform future risk
       assessments.
Recommendation 3: Update the policies for the risk assessment program to distinguish
which facilities, such as childcare centers, parking lots, and storage facilities, require an FPS
risk assessment and which ones, such as IRS employee-occupied facilities, require a PSEP
office risk assessment.

                                                                                                Page 6
                               The Physical Security Risk Assessment
                                    Program Needs Improvement



       Management’s Response: The IRS agreed with this recommendation. The
       Director, PSEP, will update Physical Security Internal Revenue Manual 10.2.11, Basic
       Security Concepts, and Standard Operating Procedures 021 (a), Risk Assessments, to
       distinguish which risk assessments are the responsibility of the FPS and which risk
       assessments are the responsibility of the PSEP office.

Risk Assessment Findings Were Not Consistently Acted Upon, and
Additional Vulnerabilities Were Identified During Site Visits
The risk assessment project completed in CY 2010 included numerous findings related to
additional security countermeasures needed at IRS facilities. However, some findings were not
acted upon. Specifically, we found that the process to implement the security countermeasures
did not consistently follow the established prioritization schedule, and some countermeasures
were not implemented, which the IRS attributed in part to resource constraints. In addition,
during our site visits, we identified security weaknesses that were not addressed through the risk
assessment process and that records on prior risk assessments were not always retained.

The PSEP office did not consistently follow up on risk assessment findings
Although PSEP office management developed a prioritization schedule to roll out the security
countermeasures, we found they sometimes implemented lower priority countermeasures before
other higher priority actions. The prioritization schedule was intended to phase in the large
volume of countermeasures based on criticality, over a period of time, as funding became
available. PSEP office management made a decision to address “low-hanging fruit” if a lower
priority countermeasure, such as posting signs advising of video surveillance, was low cost and
could be easily implemented. However, by diverting attention from higher priority
countermeasures to lower, less critical countermeasures, critical vulnerabilities may not have
been addressed timely.
We also found that PSEP office management made a decision to not implement blast mitigation
at approximately 191 facilities that were identified through the CY 2010 risk assessment project.
Blast mitigation countermeasures generally refer to specially designed window systems to
mitigate the hazards from glass and flying debris. These countermeasures vary by the FSL of a
facility, but are required by ISC standards for FSL II through V facilities. PSEP office
management explained that the costs associated with updating numerous IRS facilities with
needed blast mitigation measures were prohibitive and impractical; management had decided to
accept the risk of not implementing this countermeasure. However, we believe blast mitigation
should have been considered on a case-by-case basis because some IRS facilities may be more
vulnerable than others. For example, a single-story building where parking is allowed adjacent
to the building could be at greater risk than an IRS space that is located on a higher floor of a
building and further removed from parked vehicles.


                                                                                            Page 7
                                    The Physical Security Risk Assessment
                                         Program Needs Improvement



Finally, as of May 2013, some Taxpayer Assistance Centers (TAC)17 still lacked additional
guards and other countermeasures, although these vulnerabilities were identified in the CY 2010
risk assessments. On November 8, 2010, PSEP office management reported that a decision was
made to maintain a permanent guard presence at all TACs as a result of the risk assessment
project and, according to PSEP records, each TAC has at least one guard present at each
location.18 However, risk assessments performed at TACs across the country identified that
some TACs need additional guard presence and other countermeasures such as x-ray machines to
comply with the ISC standards. During our audit, we found that at least four TACs do not
currently have the additional guard or x-ray machine recommended by the risk assessments.
PSEP office management stated that this information is not tracked on a national level and thus
could not provide information on how many TACs nationally have increased vulnerability
because additional guards and other countermeasures are not in place.
The ISC standards require that certain facilities maintain a guard presence and that the risk
assessment determines the need for security guard presence. Despite the apparent critical nature
of this countermeasure, PSEP office management categorized guard deployment as the lowest
priority level for implementation. PSEP office management also stated that they were unable to
place additional guards at all of the offices that need them because of budget constraints.
Because IRS employees at the TACs are engaged in face-to-face contact with taxpayers daily,
there is an ongoing risk that they may come into contact with individuals who pose a physical
threat to them or the facility. Having all the required countermeasures at these offices is critical
to ensuring the safety of IRS employees and members of the public who visit IRS offices.

Site visits identified additional unaddressed security vulnerabilities
During our site visits to 10 IRS facilities, we identified security vulnerabilities at two locations
that PSEP office management was unaware of until the audit team brought it to their attention.
At one location, the CY 2010 risk assessment did not disclose a security vulnerability related to a
childcare center located within an IRS facility. At another location, local management did not
implement the security countermeasures recommended by the PSEP office.




17
   A TAC is an IRS office with employees who answer questions, provide assistance, and resolve account issues for
taxpayers face to face.
18
   The Agency-Wide Shared Services Business Performance Review. The Business Performance Review process is
conducted quarterly for each operating division. During these reviews, division commissioners and chiefs discuss
their progress on meeting their performance targets or goals and new or emerging issues that may affect major
programs and performance.
                                                                                                          Page 8
                                    The Physical Security Risk Assessment
                                         Program Needs Improvement



At one location we visited, the risk assessment failed to disclose that visitors to a childcare center
did not receive the appropriate security screening.19 This specific childcare center is located
inside of the IRS building, but visitors enter the childcare center space through a separate
reception area where there is no physical security screening. Additionally, childcare center
visitors are allowed to enter the overall campus grounds with their vehicle if the childcare center
has provided their name to the guard on duty at the entrance.
For this childcare center, we observed that FPS guards do not screen visitors, and we were
informed that PSEP office management are unaware of what screening procedures are used by
the childcare center. The IRS facility the childcare center is located in is unique because it
houses critical IRS infrastructure and is designated as a combined FSL IV and V. Because of the
significance of this facility, ISC standards20 require that all visitors be screened by an armed FPS
guard, be screened via a magnetometer, and be submitted to x-raying of personal items. In
contrast, we visited two other FSL IV buildings that house childcare centers and observed that
they screened visitors as required by ISC standards.
PSEP office staff explained that the childcare center at this facility is operated by a private
company that leases the space directly from the General Services Administration. According to
PSEP office management, the General Services Administration made a decision to lease the
childcare center space to a private company. In addition, after being advised of the situation on
December 3, 2012, PSEP office management stated that they believed appropriate screening
measures were in place at this facility but did not provide any documentation to confirm that
visitors to the childcare center space are screened by the FPS. We subsequently revisited the
childcare center on December 18, 2012, and confirmed that visitors still enter the childcare
center without being screened by the FPS. Because the general public is allowed access to the
IRS grounds and facility and come in close proximity to IRS operations, appropriate security
measures should be in place to ensure the safety of the approximately 2,626 IRS employees as
well as visitors at this facility.
At another location we visited, the countermeasures recommended by PSEP office staff were not
implemented, although they were funded and provided to the facility. During our site visit to this
FSL III facility, we found that the local manager of the TAC had not implemented the
countermeasures that the PSEP office security staff recommended after the CY 2010 risk
assessment review. The risk assessment recommended that the office space be reconfigured (by
moving a wall between the waiting area and the entrance to the office) to allow the armed FPS
security guard to see visitors entering the facility and those seated in the waiting room.

19
   The ISC standard requires that the screening consists of having the individual go through the magnetometer or be
screened with a handheld magnetometer wand as well as screening all bags and packages that the person has in his
or her possession. A magnetometer is a form of electronic screening and may be a device persons walk through or a
handheld device.
20
   Department of Homeland Security, FSL Determinations for Federal Facilities, An Interagency Security
Committee Standard (March 2008).
                                                                                                            Page 9
                                      The Physical Security Risk Assessment
                                           Program Needs Improvement



Additionally, a handheld magnetometer wand was recommended so that the guard could screen
the visitors as required by the ISC standards for an FSL III facility.
The TAC manager told us that he initially reconfigured the office and removed the wall in
accordance with the risk assessment recommendation. However, he did not like the office
reconfiguration or having to use the handheld magnetometer wand to screen visitors. Without
informing the PSEP office, the TAC manager stopped using the magnetometer wand and
reconfigured the office back to the way it was before the risk assessment. The security specialist
responsible for this facility stated that she was very familiar with the facility and was surprised
that the countermeasures were not implemented by the TAC manager. The security specialist
also stated that there is no mechanism in place to follow up on recommended countermeasures
resulting from the risk assessments. A follow-up visit to the TAC in April 2013 found that this
condition had not been addressed. The ongoing vulnerability continues to expose IRS employees
and taxpayers because critical countermeasures are not in place.

Risk assessments prior to CY 2010 were not maintained at sites visited
For eight of the 10 sites we visited, PSEP office management did not provide us with risk
assessments that were conducted prior to CY 2010 because records were not retained. PSEP
office management also could not provide us with the dates risk assessments were performed at
those locations prior to CY 2010. Consequently, we could not determine how long security
vulnerabilities identified in CY 2010 had existed for these locations. The ISC standards require
that risk assessments be performed every five years for facilities designated as FSL I and FSL II
and every three years for facilities designated as FSLs III, IV, and V. However, PSEP office
management stated that their policy is to retain risk assessment records for only three years or
until discontinuance of the facility (whichever is sooner).21 Therefore, records from prior risk
assessments may not be available for security personnel to review when upcoming risk
assessments are scheduled for FSL I and FSL II facilities.
Without access to prior risk assessment documentation, the program lacks transparency and the
PSEP office cannot provide assurance that the required risk assessments are performed timely or
that security vulnerabilities raised in the past have been mitigated or resolved.

Recommendations
The Director, PSEP, should:
Recommendation 4: Follow the prioritization schedule developed by PSEP office
management to implement the recommendations from the CY 2010 risk assessments and ensure
that the most critical security vulnerabilities are addressed as funding becomes available.


21
     Internal Revenue Manual 1.15.20 (Oct. 19, 2010).
                                                                                           Page 10
                               The Physical Security Risk Assessment
                                    Program Needs Improvement



       Management’s Response: The IRS agreed with this recommendation. The Director,
       PSEP, will follow the prioritization schedule to implement the recommendations from the
       CY 2010 risk assessments. As funding becomes available, the most critical security
       vulnerabilities will be addressed.
Recommendation 5: Develop a process to ensure that required countermeasures are in place
and functioning as required at all TACs.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       PSEP, will develop a process to ensure that required countermeasures are in place and
       functioning as required at all TACs.
Recommendation 6: Implement appropriate security protocols at the facility with the
childcare center to ensure that all visitors entering the campus grounds and the building are
screened according to ISC standards.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       PSEP, will ensure that language is included in Physical Security Internal Revenue
       Manual 10.2.11, Basic Security Concepts, that clarifies the requirement to ensure that
       visitors entering the campus grounds and the building are screened according to ISC
       standards before entering the childcare center.
Recommendation 7: Ensure that risk assessment documents are retained long enough so they
will be available when future risk assessments are conducted.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       PSEP, will ensure that the Standard Operating Procedures 021(a), Risk Assessments, is
       updated to include the requirement that risk assessments are to be maintained until a new
       risk assessment is completed.




                                                                                            Page 11
                                    The Physical Security Risk Assessment
                                         Program Needs Improvement



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether physical security risk assessments
were conducted as required at all IRS facilities. Our review focused on the risk assessments
conducted by the PSEP office in CY 2010, which addressed the IRS Commissioner’s
requirement to conduct risk assessments at all IRS-occupied facilities and identify measures
needed to improve employee safety. To accomplish our objective, we:
I.      Determined the process used by the IRS to conduct physical security risk assessments of
        its facilities in CY 2010.
        A. Interviewed PSEP office management to gain an understanding of the procedures
           used to conduct the physical security risk assessments.
        B. Identified the policy, guidelines, etc., used by the IRS for conducting the physical
           security risk assessments.
        C. Requested a list of all IRS facilities as of December 31, 2010, the endpoint of the risk
           assessment project.
II      Determined if physical security risk assessments were performed in CY 2010 for all IRS
        facilities.
        A. Obtained all physical security risk assessments conducted by the IRS in CY 2010 and
           confirmed whether a physical security risk assessment was performed for every IRS
           facility as required.
        B. Obtained June 2010 reports from the Treasury Integrated Management Information
           System1 and the GDI to identify all occupied facilities.
        C. Compared the list of IRS facilities with the physical security risk assessments
           conducted in CY 2010.
III.    Assessed the process followed by IRS personnel when performing physical security risk
        assessments in CY 2010.




1
  Treasury Integrated Management Information System supports payroll and personnel processing and reporting
requirements for the IRS. The system contains data for IRS employees including job series, grade, and location.
This system is currently operated by the U.S. Department of Agriculture at their National Finance Center in
New Orleans, Louisiana, which is a third party to the IRS.
                                                                                                          Page 12
                                        The Physical Security Risk Assessment
                                             Program Needs Improvement



           A. Selected a judgmental sample2 of 10 facilities to review based on the FSL of the
              facility, the geographic location, and the type of facility. A judgmental sample of
              10 facilities of the more than 600 facilities was selected due to resource constraints
              associated with physical travel to the various locations.
           B. Performed a site visitation to the 10 facilities selected in our sample.
                1. Determined whether any of the vulnerabilities identified during the physical
                   security risk assessments still exist.
                2. Interviewed IRS personnel who performed the physical security risk assessments
                   to obtain their feedback on the assessment process and whether they are aware of
                   any unreported vulnerabilities that were in existence at the time of the CY 2010
                   assessments.
           C. Determined how the recommendations and findings in the physical security risk
              assessments were addressed, implemented, or mitigated.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: policies and procedures guiding the risk
assessment process, PSEP office staff qualifications and training, and management oversight.
We evaluated these controls by interviewing IRS management, reviewing a sample of risk
assessments performed in CY 2010, and reviewing applicable documentation, including the
pertinent ISC standards to support the program.




2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 13
                             The Physical Security Risk Assessment
                                  Program Needs Improvement



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Jonathan T. Meyer, Director
Janice M. Pryor, Audit Manager
Yasmin B. Ryan, Lead Auditor
Allen L. Brooks, Senior Auditor
Michele N. Strong, Senior Auditor




                                                                                    Page 14
                            The Physical Security Risk Assessment
                                 Program Needs Improvement



                                                                    Appendix III

                        Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Financial Officer OS:CFO
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Risk Management Operations and Policy OS:A:PSEP
Director, Security Standards and Enhancements OS:A:PSEP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                          Page 15
                               The Physical Security Risk Assessment
                                    Program Needs Improvement



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Protection of Resources – Potential; five facilities were potentially at risk for having
    inadequate physical security or security protocols that were not in compliance with ISC
    standards. Approximately 248 IRS employees were potentially affected in those five
    facilities (see page 4).

Methodology Used to Measure the Reported Benefit:
We compared PSEP office inventory lists of IRS-occupied buildings to the June 2010 GDI
reports to determine if any facilities were omitted from the CY 2010 risk assessment project.
We found that the IRS did not conduct risk assessments at these five buildings, housing 248 IRS
employees, which are currently open. We traced the five buildings to the June 2010 GDI report
to confirm the number of employees at each location.
To determine if any buildings were omitted, we compared both the June 2010 GDI report and the
June 2010 Treasury Integrated Management Information System report against the IRS’s list to
receive a risk assessment, but risk assessments were not completed.




                                                                                          Page 16
                                   The Physical Security Risk Assessment
                                        Program Needs Improvement



                                                                                   Appendix V

     Facility Security Level Determination Matrix

           Factor                                          Points
                                  1 point       2 points       3 points          4 points

Mission Criticality                Low          Medium           High           Very High

Symbolism                          Low          Medium           High           Very High

Facility Population                <100        101–250         251–750             >750

Facility Size                                   10,000–        100,001–
                                  <10,000                                       >250,000
(Square Footage)                                100,000         250,000

Threat to Tenant Agencies          Low          Medium           High           Very High

Intangible Factors                  —             —                 —               —

     Total Score                    —             —                 —               —
Source: PSEP office management.

Note: The FSL may be raised or lowered one level at the discretion of the Agency Designated
Official based on intangible factors. However, the intangible factor should not be used to raise
or lower the FSL in response to a particular threat act.

   Scoring                              Total Points to Determine the FSL

Level I                5–7 Points
Level II               8–12 Points
Level III              13–17 Points
Level IV               18–20 Points
Level V           The criteria and decisionmaking authority for identifying
                  Level V facilities are within the purview of the individual agency.
Source: PSEP office management.


                                                                                            Page 17
                             The Physical Security Risk Assessment
                                  Program Needs Improvement



                                                                                     Appendix VI

  Fourteen Internal Revenue Service Buildings
    That Did Not Receive a Risk Assessment
             in Calendar Year 2010

                                                                                 Number of
   Building                                                     Type of
                    FSL               City, State                                  IRS
   Number                                                       Property
                                                                                 Employees
   AK0029            IV       Fairbanks, Alaska                 IRS Office               6

   CA6000            II       San Francisco, California         IRS Office            179
   CA8072        Unknown      Santa Cruz, California            IRS Office             10
   CT0059            IV       Bridgeport, Connecticut           IRS Office             54

   DE0017            II       Dover, Delaware                   IRS Office             10
   FL2046            II       Deerfield Beach, Florida          IRS Office            104
   KY3048            II       Florence, Kentucky                IRS Office             19

                              Clinton Township,
    MI1942           II                                         IRS Office             50
                              Michigan
                              Philadelphia,
   PA0462            IV                                          Campus             1,713
                              Pennsylvania
   PA0719            II       Bethlehem, Pennsylvania           IRS Office             34

                              Philadelphia,
   PA0727            IV                                          Campus               479
                              Pennsylvania
                              Philadelphia,
   PA0739            III                                         Campus               222
                              Pennsylvania
                              Philadelphia,
   PA6520            IV                                          Campus             1,520
                              Pennsylvania
   TX2353            II       Bryan, Texas                      IRS Office               8

 Total IRS Employees Stationed at the 14 Buildings in CY 2010                       4,408
Source: Treasury Inspector General for Tax Administration review of the June 2010 GDI report.




                                                                                                Page 18
                                    The Physical Security Risk Assessment
                                         Program Needs Improvement



                                                                                          Appendix VII

     Status of 14 Internal Revenue Service Buildings
     That Did Not Receive Timely Risk Assessments

                                            Was a Risk        Was a Risk
                                           Assessment        Assessment                             Date
  Building                                 Completed in       Completed         Date of Risk       Building
  Number              City, State            CY 2010         After CY 2010      Assessment         Closed
  AK0029        Fairbanks, Alaska                No                Yes           10/18/2012            —
                San Francisco,
  CA6000                                         No                No                 —            8/31/2011
                California
  CA8072        Santa Cruz, California           No                No                 —            5/31/2012
                Bridgeport,
  CT0059                                         No                Yes           11/12/2012            —
                Connecticut
  DE0017        Dover, Delaware                  No                No                 —           11/30/2011
                Deerfield Beach,
   FL2046                                        No                Yes            9/28/2012            —
                Florida
  KY3048        Florence, Kentucky               No                No                 —           11/30/2011
                Clinton Township,
   MI1942                                        No                Yes            3/05/2012            —
                Michigan
                Philadelphia,
  PA0462                                         No                No                 —            4/30/2011
                Pennsylvania
                Bethlehem,
  PA0719                                         No                Yes            6/15/2012            —
                Pennsylvania
                Philadelphia,
  PA0727                                         No                No                 —            4/30/2011
                Pennsylvania
                Philadelphia,
  PA0739                                         No                No                 —            4/30/2011
                Pennsylvania
                Philadelphia,
  PA6520                                         No                No                 —            4/30/2011
                Pennsylvania
  TX2353        Bryan, Texas                     No                No                 —            9/30/2011

Buildings That Closed After CY 2010 and Did Not Receive a Risk Assessment                 9

Buildings That Received a Risk Assessment After CY 2010                                   5
Source: Treasury Inspector General for Tax Administration review of the June 2010 GDI report and the June 2010
Treasury Integrated Management Information System report.

                                                                                                      Page 19
                The Physical Security Risk Assessment
                     Program Needs Improvement



                                                           Appendix VIII

     Fourteen Physical Security and
Emergency Preparedness Office Territories

     Territory                            State/Location
                                  Connecticut
                                  Maine
                                  Massachusetts
     Andover                      New Hampshire
                                  Rhode Island
                                  Vermont
                                  Alabama
     Atlanta                      Florida
                                  Georgia

      Austin                      Texas

    Brookhaven                    New York
                                  Kentucky
    Covington                     Ohio
                                  Illinois
                                  Indiana
      Detroit                     Michigan
                                  Wisconsin
                                  Alaska
                                  California (Fresno, Tulare, and Visalia)
                                  Idaho
      Fresno                      Nevada
                                  Oregon
                                  Washington




                                                                       Page 20
                              The Physical Security Risk Assessment
                                   Program Needs Improvement




                 Territory                             State/Location
                                                Iowa
                                                Kansas
                                                Minnesota
                                                Missouri
               Kansas City
                                                Nebraska
                                                North Dakota
                                                Oklahoma
                                                South Dakota
                                                North Carolina
                                                Puerto Rico
                                                South Carolina
              Martinsburg
                                                United States Virgin Islands
                                                Virginia
                                                West Virginia
                                                Arkansas
                                                Louisiana
                 Memphis
                                                Mississippi
                                                Tennessee
                                                Delaware
            National Capital
                                                Maryland
                                                California (Rest of the State)
                 Oakland
                                                Hawaii
                                                Arizona
                                                Colorado
                                                Montana
                   Ogden
                                                New Mexico
                                                Utah
                                                Wyoming
                                                Pennsylvania
               Philadelphia
                                                New Jersey
Source: PSEP office website, March 2013.

                                                                                 Page 21
           The Physical Security Risk Assessment
                Program Needs Improvement



                                               Appendix IX

Management’s Response to the Draft Report




                                                     Page 22
The Physical Security Risk Assessment
     Program Needs Improvement




                                        Page 23
The Physical Security Risk Assessment
     Program Needs Improvement




                                        Page 24
The Physical Security Risk Assessment
     Program Needs Improvement




                                        Page 25
The Physical Security Risk Assessment
     Program Needs Improvement




                                        Page 26
